No. 19INTHE

ANTONIO L. SAULSBERRY

v.
RANDY LEE, WARDEN

Petitioner,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I, Joshua M. Koppel, a member of
the bar of this Court, certify that the accompanying Petition for a Writ of Certiorari
contains 8,513 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.l(d).
Executed on September 26, 2019.

JOSHUA M. KOPPEL
WILMER CUTLER PICKERING
HALE AND DORR LLP

1875 Pennsylvania Ave., NW
Washington, D.C. 20006
(202) 663-6000
j oshua.koppel@wilmerhale.com

